Summary of Focus Group Discussions on the
        Future of First-Class Mail




                      Management Advisory




                             April 20, 2012




Prepared by   Office of Audit
              Report Number: MS-MA-12-001
April 20, 2012


MEMORANDUM FOR:                   Patrick R. Donahoe
                                  Postmaster General



FROM:                             Darrell E. Benjamin, Jr.
                                  Deputy Assistant Inspector General
                                   for Revenue and Systems


SUBJECT:                          Management Advisory Report – Summary of Focus
                                  Group Discussions on the Future of First-Class Mail
                                  (Report Number MS-MA-12-001)

To evaluate the current and future states of First-Class Mail®, the U.S. Postal Service
Office of Inspector General coordinated focus groups with high-volume First-Class
mailers and mail service providers whose clients include high-volume First-Class
mailers. The purpose of the focus groups was to assess mailers’ current usage of
First-Class Mail, explore their attitudes toward existing rates and service standards, and
determine how they might respond to changes in First-Class Mail rates and the existing
pricing structure. This management advisory report summarizes key points from the
focus group discussions and provides our observations and suggested strategies for
improving volume, based on the focus group discussions.

Attachments

cc: Paul E. Vogel
    Corporate Audit and Response Management
Office of Audit                                                                                   April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail                              MS-MA-12-001


                             Summary of Focus Group Discussions
                               on the Future of First-Class Mail

Introduction

First-Class Mail is the cornerstone of the U.S. Postal Service’s product line, both in
terms of revenue generation and customer recognition. Current and projected declines
in First-Class Mail, coupled with the Postal Service’s inability to successfully reduce
costs at the same rate or generate additional revenue to offset the loss, have put the
Postal Service’s financial condition and outlook at risk, in both the short- and long-term.
While the Postal Service has made efforts to reduce costs and increase revenue,
fundamental changes to its business model will likely take a significant amount of time –
time the Postal Service does not have, given its current financial situation.

One of the major reasons for the Postal Service’s financial crisis is the sharp decline
(25 percent since 2006) in First-Class Mail over the last several years. 1 Experts’
projections for the future of First-Class Mail is cause for even further concern, as they
estimate that mail volume will continue to decline significantly until 2020 and beyond. 2
The decline in First-Class Mail is primarily due to the availability of cheaper and more
accessible electronic alternatives, as well as customers’ changing needs and
behaviors. 3 This shift was further accelerated by the economic recession and sluggish
economic recovery. See Appendix A for additional information about the First-Class
Mail® decline and its effect on the Postal Service’s financial condition.

To evaluate the current and future states of First-Class Mail, the U.S. Postal Service
Office of Inspector General coordinated focus groups with high-volume First-Class
mailers and mail service providers whose clients include high-volume First-Class
mailers. The purpose of the focus groups was to assess mailers’ current usage of
First-Class Mail, explore their attitudes toward existing rates and service standards, and
determine how they might respond to changes in First-Class Mail rates and the existing
pricing structure. See Appendix B for additional information on our objective, scope, and
methodology.

This management advisory report summarizes key points from the focus group
discussions and provides our observations and suggested strategies for improving
volume, based on the focus group discussions. Appendix C provides a detailed
summary of the focus group discussions and highlights the key points discussed.




1
  U.S. Postal Service, Plan to Profitability: 5 Year Business Plan, February 16, 2012, slide 3,
http://about.usps.com/news/national-releases/2012/pr12_0217profitability.pdf.
2
  Boston Consulting Group, Projecting US Mail [V]olumes to 2020 Final Report – Detail, March 2, 2010, page 8,
http://about.usps.com/future-postal-service/bcg-detailedpresentation.pdf.
3
  McKinsey & Company, USPS Future Business Model, pages 2-5, March 2, 2010, http://about.usps.com/future-
postal-service/mckinsey-usps-future-bus-model2.pdf.


                                                        2
Office of Audit                                                                 April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail            MS-MA-12-001


Summary of Focus Group Discussions

Overall, focus group participants indicated that there is very little the Postal Service can
do to prevent the steep decline of First-Class Mail. In fact, the most senior levels of
corporate management have already made decisions to move to electronic means as
quickly as possible. The internal and external challenges facing First-Class Mail,
coupled with the uncertainty in mail delivery times as a result of service standard and
operational changes, and overall postage costs, prompt companies to try to drive this
expense out of their budgets. Mail overseers within companies are generally charged
with taking money out of their postal budgets to be spent elsewhere in the organization
for marketing and/or new electronic initiatives. Once the postage budget is diverted to
other investments, companies do not want to move those expenses back without
compelling reasons.

Focus group participants did, however, identify several mechanisms to potentially slow
the rate of decline over the next several years. These mechanisms mainly focus on
making it easier for mailers to do business with the Postal Service. Specifically, mailers
indicated they would be less likely to move away from the mail, or may not move away
as quickly, if the Postal Service were to make changes that create a greater sense of
certainty and stability in the Postal Service’s future. For example, mailers would feel a
greater sense of confidence in the Postal Service if it were able to make effective
operational changes, such as optimizing the retail, mail processing, and delivery
networks; successfully securing congressional action; and overhauling its compliance
regulations. Additionally, mailers said they would have an increased sense of security –
and, therefore, would be more willing to do business with the Postal Service – if it were
to develop and implement predictable pricing policy and rule changes, as well as
reliable delivery service standards.

Recent actions with respect to Postal Inspection Service investigations and compliance
have left a “bad taste” in the mouths of a large segment of high-volume mailers.
Specifically, mailers stated that the techniques the Postal Service has adopted — using
the Postal Inspection Service to enforce compliance — make mailers feel like “guilty
parties” and further deteriorate their relationship with the Postal Service. Additionally,
mailers feel that sometimes non-compliance was merely the result of a unique situation
(such as the inability to change addresses without customers’ consent or the need to
protect an abused spouse’s privacy), rather than the intent to avoiding making correct
payments. The Postal Service’s lack of understanding and inability to work with mailers
on these situations reinforces an adversarial, rather than a collegial, business
relationship.

Focus group participants overwhelmingly concluded that if the Postal Service wants to
remain viable in the long-term and wants to keep their business, it will have to produce
an alternative electronic service, namely a Postal Service-sponsored electronic mailbox.
As one of the most trusted governmental entities, participants believe the Postal Service
is in the best position to create such a service. Mailers communicated a strong desire to
partner with the Postal Service in the development of a secure electronic mailbox and a
willingness to share the results of existing research, provide information technology


                                                   3
Office of Audit                                                                April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail           MS-MA-12-001


resources to aid in the speed of development, and share the “postage” savings
(contribute investment dollars) they would accrue from transitioning First-Class Mail
bills, invoices, and statements to the electronic platform. Mailers, however, stressed that
time is of the essence in this arena, so the Postal Service should act quickly to
announce its intentions to enter this market.

Focus group participants agreed that the Postal Service’s future lies with online and
electronic options, which is what the Postal Service should be investing in for its
long-range survival. In short, the Postal Service should focus on becoming a 21st
Century communications provider, not just the Postal (mail) Service. See Appendix C
for details about the focus group discussions.

Suggested Strategies for Improving Mail Volume and Revenue

During the course of these discussions, mailers and mail service providers suggested
the following overall strategies for improving mail volume and revenue. To sustain
operations in both the short- and long-term and continue to provide effective service to
mailers and all postal customers, the Postal Service should:

1. Heed mailers’ and mail service providers’ call for more effective
   customer communications – The Postal Service should address the
   uncertainty and anxiety that mailers have about the longevity of the Postal
   Service, including its programs and initiatives.

2. Work in partnership with various segments of mailers – The Postal
   Service needs to understand the realities of compliance and develop a viable
   solution that does not penalize mailers for abiding by their industry’s legal
   requirements to use certain classes of mail. As discussed above, mailers feel
   that sometimes non-compliance was merely the result of a unique situation,
   such as a legal prohibition against the mailer changing a customers’ address
   without consent, rather than intentionally violating policies. The Postal Service
   should attempt to understand and work with mailers in these special
   circumstances to create collegial business relationships.

    Additionally, the Postal Service should work with mailers to correct the
    negative image that has developed from past inconsistent application of
    compliance rules by different Postal Service personnel. Working with mailers
    to undo the collateral damage left in the wake of prior Postal Service actions
    could have a favorable effect on mailers’ senior management, which currently
    has a negative view of the Postal Service.

3. Take actions to create greater certainty and stability in the Postal
   Service’s decisions and future operations – The Postal Service should
   step in to facilitate better and more stable planning for mailers regarding plant
   consolidations, 5-day delivery, and reduced service standards. Mailers want
   time to plan for and implement these types of changes, as there is a direct
   cost to the mailers in responding to changes and backtracking by the Postal


                                                   4
Office of Audit                                                                    April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail               MS-MA-12-001


    Service on decisions, which will add unnecessary costs to doing business
    with it.

4. Become the U.S. Communications Service – The Postal Service still plays
   a vital role in transporting physical communications and there is opportunity
   for the Postal Service to reinvent its role in the transport of electronic or virtual
   communications. The next logical stage is for the Postal Service to harness
   the power of online communications mechanisms. The Postal Service should
   take advantage of mailers’ willingness to invest both time and resources to
   develop a secure digital mailbox.

   Time is of the essence on this initiative, as current electronic mailbox
   providers are pressuring large mailers to contract with them. The Postal
   Service will need to quickly announce its intention to enter this market before
   mailers make contracts and information technology changes that are difficult
   and costly to reverse. In fact, one mailer said that, as a result of the focus
   group discussion, he was going to postpone making a decision that week on
   the subject.




                                                   5
Office of Audit                                                                  April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail             MS-MA-12-001


                   Appendix A: The Postal Service's Financial Condition

Background

The Postal Service has been facing a financial crisis for the last several years and its
outlook is not expected to improve in the near future. In fiscal year (FY) 2011, the Postal
Service posted a net loss of $5.1 billion, which would have actually exceeded
$10.5 billion, had Congress not passed a last-minute measure to delay an annual
payment to the federal government of $5.5 billion. 4 The Postal Service has been unable
to cut costs quickly enough to keep pace with declining mail volume and revenue or
generate additional revenue to offset the loss. The Postal Service reduced operating
expenses by 6.4 percent, from $75.4 billion to $70.6 billion, between FYs 2010 and
2011. However, the Postal Service’s operating revenue decreased by 2 percent during
this same period. 5

The declining volume of First-Class single-piece mail has been particularly alarming, as
                                       it is the Postal Service’s most profitable product
 Three interrelated factors are        and is decreasing at a rapid rate. Standard Mail
 causing the recent First-Class        is also growing at a slower pace than projected. 6
 Mail volume loss: electronic          Three interrelated factors are causing the recent
 diversion, weak economic activity,    First-Class Mail volume loss: electronic diversion,
 and new business practices.           weak economic activity, and new business
                                       practices.

The Postal Service’s Financial Condition

The FY 2011 loss followed losses of $8.5 billion in FY 2010, $3.7 billion in FY 2009,
$2.8 billion in FY 2008, and $5.3 billion in FY 2007. Congress also reduced the Postal
Service’s FY 2009 annual payment to the Postal Service Retiree Health Benefits Fund
by $4 billion; otherwise, the total loss for that year would have been $7.7 billion. 7

In its annual financial report for FY 2011, the Postal Service reported that it will not be
able to avoid a cash flow shortfall. 8 The Postal Service also stated that it expects to
default on the $5.6 billion prefunding payment to the Postal Service Retiree Health
Benefits Fund (the Fund) due by September 30, 2012, as well as the deferred payment
from FY 2011, which is due by August 1, 2012. 9 Even if Congress were to eliminate the
Postal Service’s obligation to make the FY 2011 and 2012 payments into the Fund, the
Postal Service will still reach the $15 billion debt ceiling in October 2012, thereby
exhausting its external funding ability. 10 With little time left to make significant changes
before its financial obligations are due, the Postal Service is in a position where it could
be forced to choose between defaulting on a mandated government payment, failing to
4
  U.S. Postal Service, Report on Form   10-K, page 15 (November 15, 2011).
5
  U.S. Postal Service, Report on Form   10-K, page 16 (November 15, 2011).
6
  U.S. Postal Service, Report on Form   10-K, page 17 (November 15, 2011).
7
  U.S. Postal Service, Report on Form   10-K, page 84 (November 15, 2011).
8
  U.S. Postal Service, Report on Form   10-K, page 6 (November 15, 2011).
9
  U.S. Postal Service, Report on Form   10-Q, page 7 (February 9, 2012).
10
   Ibid.


                                                         6
Office of Audit                                                                April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail           MS-MA-12-001


pay its creditors, and failing to pay its employees. Each of these options carries its own
set of consequences.

Mail Volume Declines and Mail Mix

Total mail volume declined 1.7 percent between FYs 2010 and 2011, which included a
First-Class Mail volume decline of 6.4 percent. Since its revenue peak in 2007, First
Class Mail volume has declined 23.7 percent, with a revenue decline of 16.2 percent.
Standard Mail® revenue also grew at a lower-than-expected rate of 2.9 percent from FY
2010 to FY 2011. 11

       Figure 1: Trends in First-Class and Standard Mail Volume, FYs 2006 – 2011




           +
Source: U.S. Postal Service, Report on Form 10-K, page 18, 2011.

In FY 2011, First-Class Mail and Standard Mail were the two largest mail products,
accounting for 94 percent of volume. First-Class Mail accounted for 44 percent of total
mail volume, 49 percent of total revenue, and 67 percent of total contribution. During
that time, Standard Mail received by households accounted for 50 percent of total mail
volume, 27 percent of total revenue, and 24 percent of total contribution. The following
pie charts break out total mail volume and revenue by product categories.



11
     U.S. Postal Service, Report on Form 10-K, page 17, November 15, 2011.


                                                         7
Office of Audit                                                                                         April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail                                    MS-MA-12-001


Figure 2: The Mail Today – FY 2011 Volume by Mail Segment (168 billion) 12

                                                   Shipping
                                                  Services &
                                                    Other
                                                    1.6%
                                  Periodicals
                                    4.2%


                                                                                 First-Class
                                                                                     Mail
                                                                                   43.8%


                       Standard Mail
                          50.4%




Source: U.S. Postal Service, Plan to Profitability: 5 Year Business Plan, slide 8, February 16, 2012.



       Figure 3: The Mail Today – FY 2011 Revenue by Mail Segment ($66 billion) 13

                                                     Other Non-
                                   Shipping             Mail
                                  Services &           5.0%
                                    Other
                                    16.1%




                           Periodicals                                         First-Class
                             2.8%                                                  Mail
                                                                                  49.0%




                               Standard Mail
                                  27.1%

Source: U.S. Postal Service, Plan to Profitability: 5-Year Business Plan, slide 8, February 16, 2012.




12
     Volume includes total mail only, not ancillary and special services.
13
     Revenue includes mail and ancillary and special services.


                                                              8
Office of Audit                                                                                  April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail                             MS-MA-12-001


Because First-Class Mail generates the highest contribution, its significant decline
directly correlates to a significant decline in net profit. In addition to an overall decrease
in mail volume, some of the First-Class Mail decline may be attributed to a shift from
First-Class to Standard Mail.

Standard Mail volume surpassed First-Class Mail volume for the first time in FY 2005. 14
The Boston Consulting Group projected a rapid mix shift from very lucrative First-Class
Mail to less-profitable Standard Mail. 15 A decreasing level of differentiation between
Standard Mail and First-Class Mail has made it easier for mailers to switch to Standard
Mail when First-Class Mail delivery is not required. One reason for this lack of
differentiation is improvement in service. Interviews with postal experts in July 2011
suggest that, at that time, Standard Mail was receiving much better service due, in part,
to excess capacity because of the decline of mail volume throughout the mail system. In
some cases, by using drop ship services, mailers could get service levels equal to or
even better than First-Class Mail, at greatly reduced prices. 16

Even with an economic recovery, business mailers will use Standard Mail because of
the lack of cost-justified differentiation in service relative to First-Class Mail. Slow
employment growth will provide a small stimulus to First-Class Mail volume growth. The
effects of this meager stimulus will be inadequate to offset the loss of volume to
electronic media. First-Class Mail volume will continue to decline for the foreseeable
future.

The Postal Service recognizes the permanent decline in mail volume and in its annual
financial statement, stated:

       “Volume and revenue continue to be lost to electronic alternatives and
       it is not expected to return because the movement constitutes a
       fundamental and permanent change in mail use by households and
       businesses.” 17

The Postal Service’s financial dependence on First-Class Mail has been precarious for
the last 16 years, as expanded use of the internet has made First-Class Mail less
relevant to mailers. The focus group discussions with First-Class mailers and mailer
service providers emphasized the point that, in order to remain relevant, necessary, and
financially solvent in the long-term, the Postal Service must move toward and fully
embrace electronic postal products.




14
   Postal Service Revenue: Structure, Facts, and Future Possibilities, page 4 (Report Number RARC-WP-12-002,
dated October 2011).
15
   Boston Consulting Group, Projecting US Mail Volumes to 2020, page 2 (March 2, 2010),
http://about.usps.com/future-postal-service/gcg-narrative.pdf
16
   Postal Service Revenue: Structure, Facts, and Future Possibilities, page 4 (Report Number RARC-WP-12-002,
dated October 2011).
17
   U.S. Postal Service, Report on Form 10-K, page 33, November 15, 2011.


                                                       9
Office of Audit                                                                                        April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail                                   MS-MA-12-001


                        Appendix B: Objective, Scope, and Methodology

We commissioned the Colography Group to assist in planning and coordinating with the
focus groups, securing an independent moderator, and managing discussion results. 18

The focus groups consisted of three panels, one on each of 3 days from January 24-26,
2012, in Ft. Lauderdale, FL. Participants on 2 of the days represented high-volume
First-Class mailers in the fields of financial services, telecommunications, health care,
insurance, utilities, and entertainment. Participants on the 3rd day represented mail
service providers serving high-volume First-Class mailers. Most participants were senior
level executives with a long and varied tenure in the mailing/communications industry
and within their own companies.

Major topics of discussion included:

    The overall communication landscape within the companies.

    Current First-Class Mail usage and motivations.

    The companies’ current communications strategies.

    Expected future First-Class Mail usage.

    Participating companies’ potential response to changes in the current pricing
     structure.

    The perceived role for the Postal Service in providing electronic mailings.

We conducted this review from January through April 2012, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We did not discuss our observations and conclusions with
management prior to the release of this report.




18
   The Colography Group is a research and consulting firm that specializes in providing market intelligence to
transportation companies, multinational shippers, legal and financial institutions, and governments in the U.S. and
abroad.


                                                          10
Office of Audit                                                                                      April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail                                 MS-MA-12-001


                          Appendix C: Focus Group Discussion Details

The focus group discussions covered three main topics: (1) current and projected First-
Class Mail usage, (2) future expectations for First-Class Mail usage and potential
opportunities for the Postal Service, and (3) the perceived role of the Postal Service in
providing electronic mailings. This appendix provides a summary of focus group
discussions in each of these areas.

Current and Projected First-Class Mail Usage

Use of First-Class Mail has changed over the last several years, which is a primary
reason for mail volume and revenue decline. Additional challenges to First-Class Mail
usage have perpetuated this decline, which leaves the Postal Service with only a
handful of options to slow the decline.

First-Class Mail Composition and Trends

Transactional Mail

The majority of First-Class Mail is transactional mail, including bills, invoices,
statements, and incoming payments. Ten years ago, nearly 100 percent of outgoing
transactional mail was sent via First-Class Mail.

Focus group participants reported that today, between 70 and 80 percent of outgoing
transactional mail is sent via First-Class Mail, with the remainder being sent or retrieved
electronically. 19 According to the focus group participants, outgoing transactional mail
accounts for upwards of 90 to 95 percent of their total First-Class Mail volume. Other
financial communications, such as dunning notices, rebates, and legal documents,
make up the remaining portion.

Focus group participants indicated that, generally, they continue to use First-Class Mail
for transactional purposes because they are legally required to do so. Use of First-Class
Mail for other purposes, particularly for acquisition or retention purposes, is more
discretionary and dependent on the circumstances, such as the nature of the intended
recipients, the size of the mailing, or the amount of postage.

On a per-piece basis, focus group participants estimated that outgoing transactional
mail costs between $0.45 and $0.50, with postage accounting for approximately
75 percent ($0.36 to $0.37 cents) of the cost. While outgoing electronic transactional
mail typically follows the same preparation path, focus group participants estimated that
the per-piece price for electronic bills is between “pennies” and $0.13. In any case,
electronic bills are perceived to be a fraction of the cost of paper bills. 20

19
   These figures are based on responses from focus group participants only; they are indicative of the direction of
trends, but may or may not be representative of the universe of First-Class mailers generally.
20
   The infrastructure investments required to produce and store electronic bills are neither well-documented nor
adequately allocated. Focus group participants assumed that cost savings associated with electronic bills, however,
would likely include the printing, materials, postage, and possibly labor.


                                                         11
Office of Audit                                                                April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail           MS-MA-12-001


According to the focus group participants, transition to electronic payments – bill
payments from the mailers’ customers to the mailers – has been more rapid. Per the
focus group participants, incoming payments sent via First-Class Mail has dropped to as
low as 40 to 50 percent of the total payments they receive. Consumers are using a
variety of payment methods, especially online banking or direct electronic payment
through the company’s website, rather than sending in checks via First-Class Mail.

Marketing Mail

Over the past 10 years, mailers have shifted from using First-Class Mail for marketing
purposes to using Standard Mail, according to participants representing both mailers
and mail service providers. While participants largely identified this as a cost-reduction
measure, they also indicated that the value of First-Class Mail for marketing purposes
has changed – First-Class Mail no longer has the cachet it once had.

The economic downturn and earnest desire to reduce postage costs have made it
mandatory for non-transactional First-Class Mail users to make the “business case” for
using First-Class Mail instead of Standard Mail. Mailers are able to accommodate this
change by making internal mail preparation and production modifications to allow for
longer delivery times.

Challenges to First-Class Mail Usage

Among focus group participants, there was universal agreement that the two main
factors propelling diminishing First-Class Mail for transactional usage are customer
preference and company cost savings. However, other internal and external challenges
drive customers away from First-Class Mail toward other modes of communication,
including electronic and less expensive mail classes. Most focus group participants
agreed that the combination of these forces will contribute to at least a steady, and
potentially precipitous, decline in First-Class Mail volume in the next 3 to 5 years.

External Challenges – The most notable external challenges driving customers away
from First-Class Mail, according to focus group participants, include:

   Concern with the Postal Service’s future status: Lack of congressional action,
    backtracking on previous action, and the political and regulatory environment under
    which the Postal Service exists, makes large volume mailers uncomfortable and
    reluctant to respond to or plan new mail initiatives.

   Challenges with running an efficient business: The Postal Service struggles to
    respond to business setbacks or market changes in a timely manner the way the
    private corporations can, in part because of legal, regulatory, and congressional
    constraints. Thus, the Postal Service has not been able to optimize its retail network,
    close plants, reduce delivery days, or control pricing, like other businesses. These
    pressures and constraints make mailers and mail service providers question whether
    the Postal Service can survive in the long-term.




                                                  12
Office of Audit                                                                 April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail            MS-MA-12-001




   The need for predictable policy and rule changes: Focus group participants
    expressed reluctance to implement rule and policy changes – even those that might
    be beneficial to them – because they were concerned they would evaporate or
    change shortly after implementation. According to some large mailers, it takes
    several months to change ingrained behaviors and even longer to plan for and
    execute new policies and procedures in their own organizations, as these changes
    take time and money. Mailers also said they were slow to take advantage of new
    programs, such as the “second-ounce rides free” incentive, for fear that it will
    disappear the next year once their internal customers have grown accustomed to the
    “new mail.”

   Repercussions of Postal Service compliance and “revenue protection”
   initiatives: Recent actions with respect to Postal Inspection Service investigations
                                        and compliance have left a “bad taste” in the
Revenue collection actions have         mouths of a large segment of high-volume mailers.
spurred mailers to divert as much
                                        Focus group participants contended that revenue
mail as possible to avoid the
headaches that can be caused            collection actions have spurred mailers to divert as
from the repercussions of non-          much mail as possible and to engage in as few
compliance.                             mailings as possible in order to avoid the
                                        headaches that can result from the repercussions
   of non-compliance. A loss of confidence in their mail being accepted as prepared
   and charged accordingly, compounded by the inconsistent enforcement standards,
   has left some wanting to avoid the issue altogether. Focus group participants stated
   that the feeling of being treated as “guilty parties” rather than partners is very much
   evident. Mailers feel that sometimes non-compliance was merely a result of a unique
   situation (such as the inability to change addresses without customers’ consent or
   the need to protect an abused spouse’s privacy), rather than intentionally avoiding
   correct payments. The Postal Service’s lack of understanding and inability to work
   with mailers on these situations reinforces an adversarial, rather than collegial,
   business relationship.

   Rising postage costs and changing service performance: Mailers claim that
    discount levels that the highest volume First-Class Mailers receive today are
    significantly smaller than they were 10 years ago. Concurrent with higher postage is
    the prospect of diminished service standards. Any other business would typically
    reward its best customers – not with more regulation and more work, as is the case,
    but with greater price reductions and better performance as volume increases.

Internal Challenges – The most notable internal challenges driving customers away
from First-Class Mail, according to focus group participants, include:

   Mailers’ view of the Postal Service: Based on the perception of significant risk
    and the cost of compliance in dealing with the Postal Service, senior executives
    stated that they and their leadership would rather use other forms of communication,
    if at all possible. The cost of postage is highly visible, most often accounting for the


                                                  13
Office of Audit                                                                  April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail             MS-MA-12-001


    largest share of mailing budgets. Postage is a real, unavoidable out-of-pocket cost
    that can only be reduced as the volume of mailings is reduced. The cost of postage,
    coupled with unexpected compliance costs and inconsistently applied mail
    enforcement standards, have left mailers vulnerable to unacceptable risks. Thus,
    mailers indicated that they would prefer to invest capital in electronic-related assets,
    rather than upgrading or maintaining mailing equipment.

   Shift to less expensive mail classes and/or fewer mailings: Aside from mail that
    is legally required to be sent via First-Class Mail, many pieces are now being sent
    Standard Mail, including marketing pieces. Additionally, stand-alone marketing
    pieces might now be placed as inserts in other pieces of First-Class Mail to reduce
    overall mail volume and total package costs.

   Push for e-communications: All mailers and mail service providers are exploring
    numerous ways of using electronic communications, as they are viewed as
    significantly less expensive than traditional paper mail and customers often prefer an
    electronic communication method. Top management has already made the decision,
    taking into account customers’ preferences, to move everything to electronic means
    as quickly as possible. The driving force behind the migration from First-Class Mail
    to electronic is much broader than the question of whether to use the Postal Service
    – it is based on an overall corporate goal to implement electronic services in all
    areas of the company.

   Sustainability initiatives: Several participants indicated that their companies are
    currently engaged in sustainability/green initiatives and increasing paperless
    electronic communications is consistent with that goal.

   Reevaluations of short- and long-term postal investments: Many companies
    are questioning whether or not it is worth investing in new First-Class Mail mailing
    equipment with a 5- to 10-year life span and determining the point at which they
    might transition internal First-Class Mail production to a third party. Engaging in this
    type of planning now calls into question the speed with which First-Class Mail pieces
    will diminish. In the interim, some mailers may move their First-Class Mail volume to
    mail service providers, rather than invest in new equipment; however, this also
    reduces their capital investments in equipment that will commit them to paper mail in
    the long term.




                                                  14
Office of Audit                                                                   April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail              MS-MA-12-001



Future Expectations for First-Class Mail Usage and Potential Opportunities for the
Postal Service

All focus group participants agreed that their organizations will likely remain in the mail
business for the foreseeable future. Mail volume will continue to diminish, but there is an
expectation that some “residual” First-Class Mail will continue to exist, as there will
always be some customer “holdouts” who want to          All focus group participants
continue receiving paper mail. While the advent of      envisioned a point in the future
100 percent electronic communication is not             when the continued use of paper
imminent, all focus group participants envisioned       communications, and thus mail,
a point in the future when the continued use of         will cease to make economic
paper communications, and thus mail, will cease         sense.
to make economic sense. Consequently, how
outgoing First-Class Mail is prepared and deposited in the mailstream is likely to change
once volume declines to a point where it is no longer efficient to run mail preparation
departments internally.

The decision of whether companies will increasingly rely on electronic communication
has already been made at the most senior levels of corporate management. The
question is no longer “if” but “when” and “how” this change will occur. Therefore, all
focus group participants believe that outgoing and incoming transactional First-Class
Mail will continue to decline.

Anticipated Rate of Decline

There was some disagreement among focus group participants as to the speed with
which companies will adopt electronic options. Some argue that it will be slow and
steady, while others contend that it could be swift and dramatic, especially if security
protocols, privacy concerns, legal constraints, and electronic enforcement provisions
are adequately addressed.

Slow and Steady

Those focus group participants that believe the decline will be slow and steady stated
they believe that outgoing and incoming electronic adoption has reached a plateau.
They believe that natural maturation of the population and internal organizational
e-initiatives will continue to fuel the transition to electronic means, but the annual rate of
the change has tapered to single digits.

Swift and Dramatic

The focus group participants who believe the decline will be swift and dramatic forecast
that “major triggers” are likely to hasten the decline in the next few years. Triggers or
precipitous events may include removing First-Class Mail legal and Postal Service
requirements, having a “trusted” and well-known secure electronic mailbox provider
available, experiencing another anthrax incident, and/or having significant congressional


                                                  15
Office of Audit                                                                  April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail             MS-MA-12-001


action with respect to the Postal Service take place, such as a change in the number of
delivery days. They believe that any of these could spur the rapid adoption of electronic
alternatives.

Nearly every participant imagines even more dramatic reductions in their outbound mail
if laws are changed with respect to First-Class Mail. This could include the rapid
adoption of Standard Mail for all, or the vast majority, of transactional pieces.

How the Postal Service Could Slow the Rate of Decline

Some mailers and mail service providers indicated that the Postal Service’s introduction
of more creative, integrated mail and/or electronic applications could slow the pace with
which First-Class Mail volume declines. Applications designed to make mail work in
concert with technology, such as Quick Response (QR) codes, demonstrate that mail
can be a powerful tool in generating revenue. There is little interest in merging First-
                                          Class Mail and Standard Mail or attempting to
   Mailers would rather have the          implement greater distinctions between these
   Postal Service improve its working     two classes. Focus group participants did not
   relationship with them than make       see either of these options as sufficient to
   mail class changes.
                                          stave off further First-Class Mail declines.
                                          Instead, participants indicated that they would
rather have the Postal Service improve its working relationship with them than make
mail class changes. Specifically, they identified three operational improvements the
Postal Service needs to make:

   Get its house in order, including closing post offices, optimizing the retail network,
    taking on the unions, instituting layoffs, and imposing other cost reductions.

   Make regulatory changes, including moving First-Class Mail from the
    market-dominant category to the competitive class and getting Congress to act on
    the Postal Service’s financial crisis in order to remove uncertainty.

   Review and potentially overhaul compliance regulations, including developing a
    business case that proves that the cost of compliance is worth the investment and
    potential revenue protection. Also, the Postal Service should streamline forms,
    reduce staff accordingly, and/or train them to be more consistent in their
    interpretation and enforcement of compliance rules.

   In short, mailers and mail service providers want it to be easier to do business with
    the Postal Service. They want the Postal Service to be more proactive about gaining
    a more complete understanding of commercial business operations and
    industry-specific rules. In turn, Postal Service rules and regulations should better
    reflect operating realities and not arbitrary compliance requirements.




                                                  16
Office of Audit                                                                   April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail              MS-MA-12-001



Perceived Role for the Postal Service in Providing Electronic Mailings

All focus group participants agreed that the Postal Service’s future lies with online and
electronic options, which is what the Postal Service should be investing in for its
long-range survival. In short, the Postal Service should focus on becoming a 21st
Century communications provider, not just the Postal (paper mail) Service. Within the
                                          postal industry, there is a definite need for a
  Mailers believe that the future of      secure, electronic digital mailbox for e-bill
  First-Class Mail lies in the Postal
  Service’s ability to provide this
                                          presentment and, for some, electronic payment.
  electronic mailbox – and to do so       Currently, there is no reliable way for
  soon.                                   consumers to store their bills digitally without
                                          having to invest the time to set up their own
household management systems or importing data into some unfamiliar programs.
Mailers believe that the future of First-Class Mail lies in the Postal Service’s ability to
provide this electronic mailbox – and to do so soon.

Vision for Electronic Mailbox

Mailers and mail service providers expressed a strong need for a reputable organization
to provide a secure “virtual” mailbox that is akin to the physical mailbox. Most
envisioned that it would only receive
First-Class Mail, although others believed it       With its position as one of the most
                                                    trusted organizations, mailers and
could receive marketing communications if
                                                    mail service providers viewed the
separated from bills and other “important”          Postal Service as the best, and
communications. With its position as one of         really only, organization positioned
the most trusted organizations, mailers and         to create an electronic mailbox that
mail service providers view the Postal              would be widely accepted and
Service as the best, and really only,               trusted.
organization positioned to create an
electronic mailbox that would be widely accepted and trusted. Focus group participants
indicated they would want the electronic mailbox to be aligned with a physical address
and the operating vendor to verify the authenticity of the mailbox holders – that is, give
them all of the legal protections associated with the physical mailbox today, as well as
the enforcement authority for “misbehavior.” Ideally, the secure electronic mailbox would
be an end-to-end e-bill and/or e-pay solution, enabling consumers to retrieve their bills
and pay them using a single log-in and password for consumer convenience and ease
of use. Some mailers like this “two-way” solution, while others do not want the Postal
Service to be part of the electronic payment process. This is particularly true for the
banking participants who feel that their current operations are not only adequate, but
likely to be superior to what the Postal Service would offer. These details could be
worked out as development proceeds.

Mailers would be instructed by their customers to send their bills to this digital mailbox.
Consumer adoption would be predicated on having all or most of their billers (electric
company, telephone company, credit cards companies, banks) willing to send their bills
electronically via this source. By doing this, mailers believe they will get over the critical


                                                  17
Office of Audit                                                                 April 20, 2012
Summary of Focus Group Discussions on the Future of First-Class Mail            MS-MA-12-001


hurdle of electronic bill presentment because one source can be used by their
customers for all of their bills, rather than having to go to various websites, as
customers currently do.

Advantages of Postal Service Providing Electronic Mailbox

The Postal Service offers many more advantages than lesser-known companies, such
as Zumbox or Doxo, including:

   Trustworthiness – the Postal Service brand connotes trustworthiness to the
    American public.

   Security – the Postal Service’s current security protocols and law enforcement
    capabilities could be transferred to the virtual mailbox.

   Address authority – currently the Postal Service is perceived as the only
    authoritative source for physical addresses and could easily become the only
    authoritative source for secure electronic addresses.

   Mail protection – If the Postal Service were able to provide a means of
    communicating with recipients electronically, regardless of physical location or
    address, it would assist healthcare and insurance firms to satisfy their regulations
    and reduce the costs associated with non-deliverable mailings that are returned to
    them.

Potential Mailer Coordination

Mailers communicated a strong desire to partner with the Postal Service in the
development of a secure electronic mailbox. They expressed a willingness to share the
results of existing research, provide information technology resources to aid the speed
of development, and share the “postage” savings (contribute investment dollars) they
would accrue in transitioning First-Class Mail bills, invoices, and statements to the
electronic platform.

In part, mailers’ desire to have a Postal Service-provided digital mailbox stems from the
fact that the Postal Service would have “instant credibility” and could assume some of
the risk with transmissions (in the same way they do for physical mail). Moreover, they
believe that companies currently offering electronic mailbox options have some
limitations.

Although Postal Service ownership of this electronic mailbox is especially important to
mailers and mail service providers, they believe it is best that the Postal Service partner
with a more tech-savvy organization that has knowledge and experience in developing
and implementing such technology.




                                                  18
